               -——.———   ..—




Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




   MEDICARE HMO APPEAL AND
     GRIEVANCE PROCESSES

        Beneficiaries’ Understanding
                      OFFICE OF INSPE~OR                 GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,

is to protect the integrity of the Department   of Health and Human Semites programs

as well as the health and welfare of beneficiaries served by them. This statutory

mission is carried out through a nationwide program of audits, investigations,

inspections, sanctions, and fraud alerts. The Inspector General informs the Secretary

of program and management        problems and recommends legislative, regulatory, and

operational   approaches to correct them.





                        Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components          of the

Office of Inspector General.     It conducts short-term management      and program

evaluations (called inspections) that focus on issues of concern to the Department,       the

Congress, and the public. The inspection reports provide findings and

recommendations     on the efficiency, vulnerability, and effectiveness of departmental

programs.


The OEI’S Kansas City Regional Office prepared this report under the direction          of

James H. Wolf, Regional Inspector General.   Principal OEI staff included:


KANSASCITY REGION                                   HEADCNJARTERS

Linda Paddock, Project Leader                       Stuart Wright, Program  Specialist

Jennifer Collins, Program Analyst                   Barbara Tedesco, Mathematical

Hugh Owens, Program Analyst                          Statistician

                                                    Brian Ritchie, Program Analyst
DALLAS REGION
Judith Tyler, Program   Analyst

To obtain a copy of this report,   call the Kansas City Regional    Office at (816)426-3697.
Department of Health and Human Services

        OFFICE OF

   INSPECTOR GENERAL





   MEDICARE HMO APPEAL AND
     GRIEVANCE PROCESSES

        Beneficiaries’ Understanding




                     p$ sERVICq
                &+                ~q
            +

        $                              JUNE   GIBBS BROWN
        2                              Inspector   General
        2
        % $
         %-
          @+                                  DECEMBER 1996
           %’d~~
            >                                  0EI-07-96-O0281
               EXECUTIVE                          SUMMARY


PURPOSE

To determine   whether Medicare beneficiaries enrolled in risk-based Health
Maintenance    Organizations (HMOS) understand their appeal and grievance        rights.

BACKGROUND

Beneficiaries mayjoin arisk HMOthrough          the Medicare program.    Fora
predetermined    monthly amount, theHMO        provides Medicare- covered medically
necessa~ services. Thegoals      ofthis coverage are to provide coordinated medical
care, offer comprehensive   benefits, and contain costs by using the most cost-efficient
methods of treatment and preventing unnecessary care. As a protection for
beneficiaries, the Social Security Act requires Medicare HMOS to have two separate
and distinct processes, an appeal and a grievance process, to handle beneficiary
complaints.

In order to protect beneficiaries from inappropriate   denials of services or payment,
the Act requires that Medicare HMOS establish an appeal process to handle these
types of complaints.  If an enrollee disagrees with the HMO decision to deny services
or payment, the enrollee has 60 days to file a request for reconsideration.    If the
HMO’s decision is against the beneficiary in whole or in part, the HMO is required to
automatically send the case to the Network Design Group within 60 days for an
independent   Federal review.

All other complaints such as those relating to quality of care are processed under a
separate internal grievance procedure.     Under this procedure, there are no specific
time frames or preordained    levels of review established by law. However, HMOS are
responsible for timely transmission, an investigation, decision, and notification of the
results.

We collected information about beneficiaries’ experiences with appeal and grievance
rights through a mail sumey of 222 randomly selected enrollees and 204 disenrollees.
We supplemented     the mail survey with telephone intemiews of 17 beneficiaries who
indicated that they had filed a complaint.

FINDINGS

Eighty-sixpercentof respondentswereknowledgeableabout theirgeneralrightto make a
formal comphzintabout theiiHMOISmedicalcareor services.

Most respondents   stated that they know they have the right to complain about their
plan’s medical care or services. Sixty-six percent of respondents stated that they were
informed of their appeal and grievance rights when they first joined the HMO.


                                              i
IIoweve~ beneficimieswereless awareof specificinstanceson whichthey mightexemise
theirap~al and grievancen!ghm

The level of beneficiaries’ understanding    of specific appeal and grievance situations
was lower than their general knowledge.      For example, 59 percent of enrollees were
aware they could complain about the HMO refusing to pay for emergency care and
only 49 percent of enrollees knew they could appeal an early discharge from the
hospital. Also, disenrollees were significantly less informed than enrollees (e.g.,
enrollees were twice as likely as disenrollees to be knowledgeable     of their right to
appeal a non-hospital admission or early hospital discharge, and three times as
knowledgeable   of their ability to contest the plan’s refusal to pay a doctor or hospital
for emergency care for which they were billed).

Additionally, 45 percent of the respondents did not know, or were not sure that
certain complaints are classified as appeals while others are classified as grievances.
The distinction between appeals and grievances is important to beneficiaries because
appeal cases (denials of services or payment) are subject to independent    Federal
review for appropriateness   of the HMO decision while grievances (such as quality of
care issues) are only subject to HMO internal reviews.

Most of the beneficiarieswho consideredthey weredeniedsm”ces or payment werenot
given initialdeterminationnotices.

Thirty-four of the 41 respondents who believed their primary doctor refused to refer
them to a specialist indicated they did not receive a denial letter (called an “initial
determination    notice”), as required by Federal regulations. Also, only 21 out of 39
respondents   who reported their plan refused to pay a claim for services indicated
receiving a letter furnishing their appeal rights.

V&ryfew respondent reported@kg a formal compkzint.AU of these complaintswere
resolvedat the initialdisputekvel

Only 26 respondents     reported having filed complaints. Thirteen reported receiving a
favorable resolution, seven received unfavorable decisions, five were not sure if their
decision was favorable, and one beneficiary did not respond.     All complaints were
resolved at the initial HMO dispute level, or simply dropped by the beneficiary.     No
one requested further review of their denied complaints.

RECOMMENDATIONS

Health Care Financing Administration’s      (HCFA) Office of Managed Care is making
substantial efforts to improve the HMO appeal and grievance processes.       It has
recently created a work group - Managed Care Appeals and Grievance Initiative -
organized to make program improvements        in these functions. Appeals language has
been standardized    in “lock in” and Evidence of Coverage notices, which are sent to all
beneficiaries when they enroll in an HMO. In addition, appeal and grievance


                                              ii
information was included in the 1996 Medicare Handbook, and expanded information
on appeals was incorporated  into HCFA’S Managed Care Directory.   Currently HCFA
is working with HMOS to develop national guidelines for marketing materials.

HCFA also announced plans to produce a Managed Care Appeals Publication, an
HMO Comparability      Chart, a national data base of managed care “Questions and
Answers”, and a Managed Care Fraud and Abuse Publication.        They are continuing to
educate outside entities, including advocacy groups, by providing more information on
managed care matters, as well as highlighting beneficiary rights and protections in a
managed care setting. While HCFAS efforts should continue to have favorable
impact, we believe there is still room for improvement.

To receive full benefits of the appeal and grievance protections, beneficiaries need to
be aware of the processes, understand how the processes work, and when to use them.
In that vein, HCFA should

  �   activeZymonitorHMOS to ensurebenqjkiariesare issuedwrittendeterminations,
      includingappal rights,and emphasizethe needfor benejichzri~to cornnu.uu
                                                                            ‘cate
      clearlyany disagreementthq have withHMO dkkions to &my sem”cesor payment
      for services. This can be accomplished by:

        - continuing HCFA’S extensive efforts to make beneficiaries aware of appeal
          and grievance provisions and of the need to communicate    clearly any
          disagreement  they may have with a physician’s decision to deny a requested
          service and

        - emphasizing to HMOS the requirements     to make beneficiaries aware of
          appeal and grievance rights and to provide written initial determination
          notices when the patient communicates   disagreement with a decision to deny
          a requested service or payment.

        Federal regulations are intended to protect the rights of beneficiaries to appeal
        the denial of services by HMOS, while maintaining the ability of the physician
        to treat the patient in line with his or her medical judgement.   It is not always
        possible at the time of service for the physician to know whether a beneficiary
        believes that a service has been denied unless the beneficiary specifically
        communicates     this to the physician. Therefore, future HMO marketing,
        enrollment, and awareness sessions with Medicare beneficiaries and physicians
        should emphasize the importance of clear and open communication.

  �   workwithHiUOs to establishstandardized
                                           appealand ~“evance language
      requirementsin rnarketingkmrollment
                                       material and operatingprocedures.

        - In marketing materials, provide up front information to beneficiaries   on their
          rights under the appeal and grievance processes and



                                             ...
                                             111
       - In enrollment materials, more thoroughly educate beneficiaries about their
         specific rights under the appeal and grievance processes, including

               --a detailed overview of the types of services, lack of services, or
                 situations which may be appealed or grieved.

               --when and under what circumstances            further   levels of appeal     are
                 permitted.

               --clarification   that only appeals     and not grievances,    are subject to
                 independent      Federal review.

               --the difference between the definitions of emergency             and urgent care at
                 the time medical semices are being sought.

AGENCY COMMENTS

We solicited and received comments on our draft report from HCFA. They agreed
with the conclusion of our reports that improvements       are needed and indicated that
they are working to implement a number of our recommendations.             We are pleased
that HCFA agrees that improvements        are needed in the appeal and grievance
processes, and we recognize that changes are in the process of being made through
the Medicare Appeals and Grievance Initiative (MAGI).          However, because HCFA’S
response does not specifically address the recommendations        contained in our reports,
we are unsure whether the problems identified in our report will be fully addressed
through this initiative. As a result, it will be important for HCFA to include in their
response to the final report an action plan that specifically addresses each
recommendation.

The full text of HCFA’S comments         is included    as an appendix     to this report,




                                                 iv
                         TABLE                    OF CONTENTS


                                                                                                                     PAGE

EXECUTIVE SUMMARY


RELATED REPOR’IS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...1


INTRODU(XION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


    �   Most Respondents         Knowledgeable          About General           Rights     . . . . . . . . . . . . . . . . . 5


    � Beneficiaries     Less Aware of Specific Issues . . . . . . . . . . . . . . . . . . . . . . . . . . ..5


    �   Initial Determination       Notices Not Received               . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


    � Very    FewReport         Filing A Formal         Complaint        . . . . . . . . . . . . . . . . . . . . . . . . ..9


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...11


Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...13


APPENDICES


k       Analysis of Respondents          vs. Non-respondents             . . . . . . . . . . . . . . . . . . . . . . . . A-1


B: Estimates       and Confidence          Intervals     . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..B-l


C: HCFAResponse                 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..C-1

This is one of a series of four reports relating to
Medicare risk HMO appeal and grievance processes.
The four reports are:

Medicare HMO Appeal and Grievance Processes:
Overview, (OEI-07-94-O0280),

Medicare HMO Appeal and Grievance Processes:
Beneficiaries’ Understanding, (OEI-07-94-00281),

Medicare HMO Appeal and Grievance Processes:
Survey of HMOS, (OEI-07-94-O0282),

Medicare HMO Appeal and Grievance Processes:
Review of Cases, (OEI-07-94-00283),




                           1

                           INTRODUCTION


PURPOSE
To determine   whether Medicare beneficiaries enrolled in risk-based Health
Maintenance    Organizations (HMOs) understand their appeal and grievance        rights.

BACKGROUND
Le@diUion

Sections 1833and 18760fthe        Social Security Act specify the requirements   that HMOs

must meet in orderto     enter into a contract with the Health Care Financing

Administration   (HCFA)to     furnish Medicare covered sefices to beneficiaries.      The

goals of HMO coverage are to provide access to medical care while containing costs

by using the most cost-efficient methods of treatment and preventing unnecessary care.

In addition, HMOS can reduce the medical management           complexities experienced by

elderly patients with multiple chronic conditions, the paperwork burden of a

“fee for service” system, and financial barriers to obtaining preventive and medically

necessary health care.


Unlike traditional “fee for service,” HMOS are designed to coordinate care through a

primary care provider, offer comprehensive    benefits, and reduce or contain the costs

of medical treatment.    They operate under a fixed annual budget, based on the

prepaid premiums by patients.     Except for fees of a few dollars for each doctor’s visit

or prescription,  the premium is to cover all of a patient’s medical needs which include

everything from checkups to open-heart surgery.


Risk and Cost Plans

There are three types of Medicare HMO plans included in the Act. Generally, the
differences involve the method used by HCFA to reimburse the HMO for providing
semices and delivering medical services to beneficiaries.   The three types of contracts
are risk-based, cost-based, and Health Care Prepayment Plan (or HCPP) HMOS. The
latter two types are paid on a reasonable cost basis, wherein any differences in actual
costs and interim payments are reconciled and adjusted with HCFA at the end of the
year. Risk-based are reimbursed on a prepaid cavitation basis with no retrospective
adjustment.    While cost-based and HCPP HMOS give beneficiaries a choice of
physicians that they see, a risk-based plan requires enrollees to be “locked” into only
its contracted physicians unless emergency or urgent care is needed.

As of March 1, 1996, there were 197 risk-based HMO plans, 27 cost-based plans, and
54 HCPPS nationwide, which accounted for almost 4 million Medicare HMO enrollees,
or 10 percent of the total Medicare population. While Medicare enrollment in
managed care has increased 67 percent since 1993, HCFA reports that enrollment in
risk-based plans has grown 105 percent.




                                             2

Ap~als & GrievanceBocesses

One of the most effective ways HMOS contain costs is by using family practitioners  or
internists as “gatekeepers” to control a patient’s access to services. The patient
chooses one doctor as a primary care physician; from then on that doctor seines as
first arbiter for any treatment. The primary care physician provides medical
examinations and treatments, and serves as a “gatekeeper” to specialty care, except in
emergency and urgent care situations.

Because the payment mechanism of HMOS provides a strong incentive to manage
utilization of enrollee medical services (including the institution of a physician
“gatekeeper” and use of medical practice guidelines), the Act requires that HMOS
establish an appeal process to handle disputes Medicare enrollees have involving a
denial of or payment for services they believe should be covered by the HMO. Other
kinds of complaints such as quality of care received are handled under a grievance
procedure.    Prior to May 1995, only risk and cost-based plans were required to have
these processes.    HCPPS now must also comply with these requirements.

HCFA directives require HMOS to inform beneficiaries of their appeal/grievance
rights at enrollment, in member handbooks, and annually through a newsletter or
other communication.

Appeals m-ocess - According to 42 CFR, Sections 417.600-638, an appeal is any
dispute involving a denial of services or ayment for services made by the HMO.
Federal regulations and the HMO/CMP P Manual require a five-step process and time
limits for each step. HMOS must make an initial determination         upon receiving an
enrollee’s request for services or payment for services within established time frames
(24 days if the case is complete and no later than 60 days if development        is needed).
Each plan is required to make a decision on information they currently have within
this time frame. If the decision is to deny services or payment, the enrollee has 60
days from the date of the initial determination    to file a request for reconsideration     in
writing unless “good cause” can be shown by the beneficiary for the delay. The HMO
then has 60 days to make a reconsideration      decision.

If the HMO’s reconsideration     decision is against the beneficiary in whole or in part,
the HMO is required to automatically forward the case to HCFA for an independent
review to determine if the decision is appropriate.     Due to the increasing numbers of
appeal cases, HCFA contracted with Network Design Group (NDG) in January of
1989 to fulfill this function. The number of appeals reviewed by NDG has varied in
the last 3 years from a high in 1993 of 3,806, to 2,945 in 1994, and 3,691 in 1995.

Beneficiaries whose cases are not resolved fully in their favor at the NDG level can
request a hearing before an Administrative     Law Judge (AU) if the disputed amount is
at least $100. After this level, any party (including the HMO) may request a review by
the Department   of Appeals Board if there is dissatisfaction with the ALJ’s decision or
dismissal. The final recourse in the appeals process is a Federal court review if the



   ~ Competitive Medical Plan


                                                3

Board denies the party’s request   for review, and the amount   in controversy   is $1,000

or more.


Grievance process - Grievances are any complaints about a Medicare enrollee’s

experience with the health plan and/or its providers, excluding determinations

involving payment for semices or denial of services (which are subject to the appeals

process).  Examples of grievable issues include quality of care, physician behavior,

involuntary disenrollment concerns, and waiting times for services.


Guidance for processing grievances is found in 42 CFR, Sections 417.600 and 417.606,

and in Section 2411 of the HMO/CMP Manual. The guidelines do not provide for

time frames or specify levels of review, but call for “timely” transmission, an

investigation, decision, and notification of the results. While appeal cases that are not

resolved in favor of the beneficiaries are subject to independent    HCFA, ALJ, Appeals

Board, and Federal court review, beneficiary grievances are only subject to internal

levels of review within the HMO.


The Office of Managed Care (OMC) within HCFA is responsible for policy and

oversight of HMOS and ensuring there is compliance with the appeal and grievance

regulations. To assist plans in these processes, OMC has created the appeal and

grievance sections in the HMO/CMP Manual.


METHODOIX)GY
We identified our universe of currently enrolled and recently disenrolled beneficiaries
from the July 1995 update of the Group Health Plan master file maintained by HCFA.
This universe consisted of 2,171,946 beneficiaries who were enrolled on January 1,
1995 and had not disenrolled, and 381,871 beneficiaries who had disenrolled between
June 1, 1994 and June 30, 1995. From this universe, we selected a stratified random
sample of 410 enrollees and 500 disenrollees.     Three beneficiaries were dropped from
the enrollment sample file as one had died and two had disenrolled since the update.
We also dropped 113 beneficiaries from the disenrollment        sample due to death. The
final sample contained 794 beneficiaries (407 enrollees and 387 disenrollees).      We
received 426 questionnaires   from respondents    (222 enrollees and 204 disenrollees),
representing   a response rate of 54 percent. We analyzed the two groups (enrollees
and disenrollees) separately.   We also conducted an analysis, as explained in Appendix
A, of respondents versus non-respondents     to test for any bias of the sumey results.

We supplemented       the mail sumey with more in-depth telephone interviews with those
individuals indicating complaint experience.   Of the 426 beneficiaries who responded,
only 26 (6 percent) said they had filed a complaint.   We were able to recontact 17 of
these beneficiaries and 10 of them indicated they filed formal complaints.

We conducted our review in accordance with the Qualdy StandarAfor Inspections
issued by the President’s Council on Integrity and Efficiency.




                                            4

                                 FINDINGS


EIGHTY-SIX PERCENT OF RESPONDENTSWERE KNOWLEDGEMM
ABOUT THEIR GENERAL RIGHT TO MAKE A FORMAL COMPLAIIWl
ABOUT THEIR HMOS MEDICAL CARE OR SERVICES.

  c	   In comparison, an earlier Office of Inspector General study2 found that 75
       percent of beneficiaries were aware of the ability to file appeals and grievances.

  .	   Sixty-six percent of respondents indicated they were informed of their appeal
       and grievance rights when they first joined the HMO. In the telephone follow
       up survey, six respondents who indicated they were @ informed when they
       first joined were asked when they learned. Three of the six learned of their
       right to appeal when the payment/sexvices were denied (two learned when their
       referral was refused and one called the HMO when an out-of-plan hospital bill
       was received).   Of the remaining beneficiaries, two responded that they just
       knew of their rights and one was still unaware.

HOWEVER BENEFICIARIES WERE LESS AWARE OF SPECIFIC INSTANCES
ON WHICH THEY MIGHT EXERCISE THEIR APPEAL AND GRIEVANCE
RIGHTS.

  �	   More than one third of beneficiaries did not know or were not sure of their
       right to complain about specific problems for which appeals and grievances are
       possible. Only 45 percent of respondents knew they could appeal when the
       plan decided to discharge them from the hospital when they believed they
       should stay. Also, 47 percent of beneficiaries were aware they could complain
       about non-admission   to the hospital. (See Appendix B for the weighted
       analysis for those answering either no or not sure to these questions.)

  .	   A majority   of enrollees were aware of their right to complain about specific
       problems, but the level of understanding   of the specific cases was lower than
       their general knowledge.    (See Table 1 for these unweighed     percentages.)  For
       example, 66 percent of enrollees knew they could complain about not being
       provided Medicare covered services. However, only 49 percent of enrollees
       knew they could appeal when the plan decided to discharge them from the
       hospital when they believed they should stay.

  .	   Among disenrollees the understanding     was lower, as demonstrated    by Table 1.
       Enrollees were twice as likely as disenrollees to be knowledgeable    of their right
       to appeal a non-hospital admission or early hospital discharge.     Additionally,



    20ffice of Inspector General, Department  of Health and Human        Setices,   1994,
Beneficiary Perspectives of Medicare R&k HMOs. (OEI-06-91-00730).


                                             J
        enrollees were three times as knowledgeable    of their ability to contest the
        plan’s refusal to pay a doctor or hospital for emergency care for which they
        were billed. Enrollees were also more aware of their ability to grieve about an
        HMO physician’s behavior or their HMO facilities.

                                                       Table 1“



                            BeneficiaryAwareness of Appeal/Grievance Issues*

                                                   Not                    No, Cannot File

                                                   Sure                   ADDeal/Grievance                  Yes

Appeal Issues                            Disenrouees       Enrollees   Disenrouees    Enrollees   Dkenrollees      Enrollees




your HMO refusing to pay a doctor           12%                10%        68%           31%          m%             59%
or hospital for your emergency care         (17)               (20)       (95)          (59)         (27)           (112)
that you were billed for?




your HMO deciding to discharge you          10%                19%        71%           32%          19%             49%
from the hospital when you believe          (13)               (35)       (92)          (60)         (24)            (92)
you should stay?



                                                   Not                    No Cannot File
                                                   Sure                   AtmeaI/Grievance                  Yes
Grievance rssues                                           Enrollees   Disenrotlees   Enrollees   DisellrolkesEnrollees




delays in getting to see a specialist?      6%                 10%        54%           30%          40%             60%




your primary HMO doctor not taking          8%                 9%         55%           27%          37%            64%
your health complaints seriously? -         (13)               (17)       (82)          (52)         (55)           (125)




*Multiple responses were permitted in the sumey document and not all beneficiariesresponded to every question. See
Appendix B for the weighted analysk and confidence intervals for those who answered either no or not sure to these
questions




                                                          6

Appendix B furnishes the weighted analysis and confidence intervals for those who

answered no and not sure to these questions (see Table 1 for the unweighed

percentages).    When weighted, the sample approximates      the disproportionate

distribution of enrollees and disenrollees in the universe. A Chi-square test was

performed to test for independence       between being informed and enrollees versus

disenrollees (see Appendix A). This test showed that these two factors are dependent

with significant chi-square test statistics. However, the response rates to these

questions were much less than the overall response rate to the survey. The

disenrollees’ responses ranged from 129-151 while the enrollees’ responses ranged

from 187-197. Therefore, the response rate for disenrollees for these questions was as

low as 33 percent and the response rate for enrollees was as low as 46 percent.


  �	   Forty-five percent of the respondents did not know, or were not sure that
       certain complaints are classified as appeals while others are classified as
       grievances.   The protection afforded by external, impartial review in the
       appeals process is not afforded to grievance disputes. Beneficiaries who are
       unaware that their complaint is an appeal could potentially be denied the right
       to due process, or an independent     Federal medical review for appropriateness
       of the HMO decision. The effect of this lack of knowledge could cause
       beneficiaries out-of-pocket liability and health risks from denial of needed
       services.

       The distinction between appeals and grievances can be complicated.       Even the

       HMOS who administer this program do not completely understand it.

       Additional support for this finding is found in the OIG companion reports3

       which show that 50 percent of the HMOS are incorrectly identifying appeals as

       grievances.   Likewise, review of actual appeal and grievance case files revealed

       that all of the plans visited incorrectly processed appeals as grievances in 26

       percent of complaints reviewed.


MOST OF THE BENEFICIARIES WHO CONSIDERED THEY WERE DENIED

SERVICES OR PAYMENT WERE NOT GIVEN INITIAL DETERMINATION

NOTICES.


Inherent in the concept of managing care is the plan’s ability to choose among
acceptable alternative approaches to care. This means that beneficiary access to some
services may be restricted, even if the beneficiary wants or thinks the services are
necessary.




    30ffice of Inspector General, Department of Health and Human Semites, 1996,
Medicare HMO Appeal and Grievance Processes: Survey of HMOS. (OEI-07-94-00282).

     Office of Inspector General, Department of Health and Human Services, 1996,
Medicare HMO Appeal and Grievance Processes: Review of Cases. (OEI-07-94-00283).


                                            7
The issues involving these decisions not to provide or pay for particular services and

how they are resolved differ between fee-for-service and managed care. Inthe

fee-for-service environment, beneficiaries are free to seek treatment from another

provider iftheir physician does not believe aparticular     seficeshould be provided.   By

contrast, managed care beneficiaries’ recourses may be limited to disenrollment     or

being held financially liable for obtaining services outside the plan.


Because of these lock-in provisions of risk HMOS, the appeals and grievance

regulations were established to provide a recourse for Medicare beneficiaries when

they disagree with an HMO’s denial of a setice or payment for a semice. This

indication of disagreement    by the patient can be verbal or in writing, directly with the

HMO physician when receiving health services or later with designated HMO offices,

such as customer services. When a beneficiary disagrees, the HMO is required to

issue a written determination    notice to the beneficiary reflecting the reasons for the

denial and the beneficiary’s right to seek a reconsideration.      The HMO/CMP Manual

instructs HMOS to “Educate plan physicians and representatives         on beneficiary appeal

rights, including how and when a member may file an appeal. If a physician denies an

enrollee’s request for a service, he/she should ask the enrollee if he/she would like to

appeal. The plan must issue a written determination        to the member whenever the

member disagrees with the physician’s decision or wants to appeal a service denial.”


It was our design in the survey to find out if beneficiaries who believed that they had

been denied a referral to a specialist, or had been denied payment for a medical

service, had received proper written notification.   Although we did not validate their

responses with their respective HMOS, our survey does indicate that some

beneficiaries who considered that they were denied services or payment were not given

initial determination notices. We found that:


  �	   Forty-one respondents believed that they had been refused referral to a
       specialist. Only three of these 41 stated they received a letter explaining why
       they could not get this care. Thirty-four of the 41 indicated they did not
       receive a notice that the referral was denied. Three others were not sure if
       they got a letter and one did not respond to this question.

  �	   Thirty-nine respondents   stated their plan refused to pay a claim for services.
       Of these 39, 21 indicated receiving a letter furnishing their appeal rights. Nine
       respondents  did not receive a notice, six were not sure, and three did not
       answer.

We understand that the subject of written initial determinations   is quite complex.
Patients do not always clearly express a request for referral to a specialist or clearly
indicate to their primary care physician that they believe such a referral has been
denied them. Likewise, this ambiguity can lead patients to believe that services have
been denied while the prima~ care physician believes that additional diagnostic or
alternative treatment protocols are being pursued prior to making a final decision on
referral to a specialist. However, the explanation may simply be that the HMO has


                                              8

not adequately educated both the physician and the beneficiary about how and when a
member can appeal denials of services. Furthermore,  the procedures for providing
these notifications may simply be inadequate.

This is consistent with a companion report4 on case file reviews which found 27
percent of appeal files lacked documentation  that an initial determination  was issued.
In that inspection, we also found that five HMOS sent initial determinations   in six
cases without including the required appeal rights.

VERY FEW RESPONDENTS REPORTED FILING A FORMAL COMPLAINT.
ALL OF THESE COMPLAINTS WERE RESOLVED AT THE INITIAL DISPUTE
LEVEL

Twenty-six respondents     reported filing complaints. We telephoned those who

authorized contact, to obtain greater insight into beneficiary knowledge.      We were able

to reach 17 beneficiaries,   10 of which indicated they actually filed a formal complaint.

Three of the remaining seven acknowledged they did not file complaints; two

characterized  their complaints as informal; one complained to the nursing home; and

one attempted telephoning the HMO but was unsuccessful.          This follow-up data

suggests that only a small number of beneficiaries may be attempting to resolve access

and payment for service problems through the appeal and grievance processes.


  .	   Thirteen of the 26 mail respondents who filed complaints reported they
       received a favorable resolution, however 5 were not sure (see Table 2). Seven
       received unfavorable decisions and one beneficiary did not respond. This is
       supported in the telephone survey we conducted, where only 5 of the 10 who
       formally complained indicated receiving a favorable resolution (See Table 3).
       Despite this favorable decision, two of the five beneficiaries switched to a
       different plan and one returned to fee-for-service.

  .	   Of the   seven beneficiaries reporting an unsatisfactory outcome in the mail
       survey, six were disenrolles (See Table 2). We did not determine if the
       disenrollees returned to fee-for-service or whether these beneficiaries switched
       to another plan. A slightly lower percentage of disenrollment was experienced
       by those who appealed based upon our follow-up telephone survey; 4 out of 10
       received an unfavorable decision and, when asked, 3 of these 4 switched to
       another plan (See Table 3). The fourth beneficiary stayed with the HMO but
       switched their primary care physician.




    40ffice of Inspector General, Department of Health and Human Services, 1996,
Medicare HMO Appeal and Grievance Processes: Review of Cases. (OEI-07-94-00283).


                                             9
                                        Table 2
                                       Mail Survey




                                        Table 3
                                   Telephone Sumey
             Filed Complaint = 10             Yes          No       Not Sure


             Switched HMOS                          2           3            1


              Switched PCP                          o           1           0


  �   One of the three respondents     notified of a refusal to refer filed a complaint.
      Only 6 of the 34 beneficiaries   @ notified filed a complaint.

  �   Eight of the 21 respondents notified of a claim denial filed a complaint.       Only
      one of the nine who were @ notified complained.

  �   All complaints were resolved at the initial dispute level, or simply dropped by
      the ben~ficiary.   No one in either of our surv~ys requested fur{her re~i~w of-
      their denied complaints.     This supports a study conducted by NDG5 in which
      they found that the majority of enrollees who “jump” out of plan (usually out of
      dissatisfaction), do not first attempt to resolve differences with plan providers
      or through plan grievance systems.

The low number of beneficiaries who did not file a formal complaint, out of those who
considered they were denied, could be due to many reasons. Possible reasons include:
the beneficiaries did not want to contest the HMO decision; they agreed with the
physician; or the beneficiaries did not know they could file an appeal.



     5Richardson, David A., James Phillips, Dean Conley, Jr., “A Study of Coverage
Denial Disputes Between Medicare Beneficiaries and HMOS,” Network Design Group,
Inc., under HCFA Cooperative Agreement No. 17-C-90070/2-Ol, September        1993.



                                             10
                   RECOMMENDATIONS


Health Care Financing Administration’s      (HCFA) Office of Managed Care is making

substantial efforts to improve the HMO appeal and grievance processes. It has

recently created a work group - Managed Care Appeals and Grievance Initiative -

organized to make program improvements        in these functions. Appeals language has

been standardized    in “lock in” and Evidence of Coverage notices, which are sent to all

beneficiaries when they enroll in an HMO. In addition, appeal and grievance

information was included in the 1996 Medicare Handbook, and expanded information

on appeals was incorporated      into HCFA’S Managed Care Directory.     Currently HCFA

is working with HMOS to develop national guidelines for marketing materials.


HCFA also announced plans to produce a Managed Care Appeals Publication, an

HMO Comparability      Chart, a national data base of managed care “Questions and

Answers”, and a Managed Care Fraud and Abuse Publication.        They are continuing to

educate outside entities, including advocacy groups, by providing more information on

managed care matters, as well as highlighting beneficiary rights and protections in a

managed care setting. While HCFA’S efforts should continue to have favorable

impact, we believe there is still room for improvement.


To receive full benefits of the appeal and grievance protections, beneficiaries need to

be aware of the processes, understand how the processes work, and when to use them.

In that vein, HCFA should


  �	 activelymonitorHMOS   to ensurebeneficiariesare ksued writtendeterminations,
    includingappal rights,and emphasizethe needfor beneficiariesto commuru”cate
    clearlyany disagreementthey have withHMO deczkionsto deny serw”cesor payment
    for sena”cex This can be accomplished by:

       - continuing HCFA’S extensive efforts to make beneficiaries aware of appeal
         and grievance provisions and of the need to communicate    clearly any
         disagreement  they may have with a physician’s decision to deny a requested
         service and

       - emphasizing to HMOS the requirements     to make beneficiaries aware of
         appeal and grievance rights and to provide written initial determination
         notices when the patient communicates   disagreement with a decision to deny
         a requested service or payment.

       Federal regulations are intended to protect the rights of beneficiaries to appeal
       the denial of services by HMOS, while maintaining the ability of the physician
       to treat the patient in line with his or her medical judgment.  It is not always
       possible at the time of service for the physician to know whether a beneficiary
       believes that a service has been denied unless the beneficiary specifically
       communicates    this to the physician. Therefore, future HMO marketing,


                                            11
      enrollment, and awareness sessions with Medicare beneficiaries and physicians
      should emphasize the importance of clear and open communication.

�   work withHMOS to establkhstandardtiedappal andgrievancelanguage
    requirementsin marketinglenroi+lment
                                     rnateriahand operatingprocedures.

      - In marketing materials, provide up front information to beneficiaries               on their
        rights under the appeal and grievance processes and

      - In enrollment materials, more thoroughly educate beneficiaries about their
        specific rights under the appeal and grievance processes, including

             --a detailed overview of the types of services, lack of services, or
               situations which may be appealed or grieved.

             --when and under what circumstances            further   levels of appeal   are
               permitted.

             --clarification   that only appeals     and not grievances,    are subject to
               independent      Federal review.

             --the difference between the definitions of emergency             and urgent      care at
               the time medical services are being sought.




                                               12

                         AGENCY COMMENTS


We solicited and received comments on our draft report from HCFA. The complete
text of their response is included as an appendix to this report. A summary of their
comments and our response follows.

The HCFA agreed with the conclusion of our reports that improvements          are needed
and indicated that they are working to implement a number of our recommendations.
We are pleased that HCFA agrees that improvements          are needed in the appeal and
grievance processes, and we recognize that changes are in the process of being made
through the Medicare Appeals and Grievance Initiative (MAGI).          However, because
HCFAS response does not specifically address the recommendations         contained in our
reports, we are unsure whether the problems identified in our report will be fully
addressed through this initiative. As a result, it will be important for HCFA to include
in their response to the final report an action plan that specifically addresses each
recommendation.

Although HCFA acknowledges the case review report identifies mistakes made by
health plans, they expressed concerns about the sample sizes and number of cases
reviewed. We agree that this sample could not be used to make national projections
of the incidence of mistakes. However, the number of cases reviewed and outcomes
of the reviews are more than adequate to indicate the existence of significant problems
in HMO processing of appeals and grievances.

Finally, HCFA raised questions about the knowledge and expertise of the individuals
who prepared the HMOS’ responses to our survey documents.       We requested and
must assume that knowledgeable     HMO staff completed our survey. We also note that
beneficiaries making inquiries regarding appeals and grievances are likely to be
interacting with these same individuals or their staff.




                                            13

                              APPENDIX                   A


             ANALYSISOF RESPONDENTSVS. NON-RESPONDENTS

An important consideration       in surveys of this type is the bias that may be introduced
into the results if the non-respondents     are different than those who responded to the
survey. As a test for the presence of any bias, we obtained information from the
Enrollment Database on all of the individuals whom questionnaires          were sent. The
variables we analyzed were selected because they might determine whether an
individual would respond to the sumey, as well as affect the individuals’ actual
response.   For all 794 individuals selected for the sample, we analyzed age, race and
sex. Race and sex are categorical variables which were tested using a chi-square with
the appropriate     degrees of freedom.    Age is a continuous variable which was tested
using the t-statistic. for a difference between means.

The results are presented in the attached table. The Chi-square values given in the
table provide a test of the difference in the distribution of the respondents versus the
non-respondents   for the variable of interest. Also provided in the tables are the
response rates by the difference values of the variables.

The Chi-square test statistic was not significant when the variable sex was analyzed.
Therefore, we conclude that whether or not an individual responded was not related
to their sex.

When the respondents vs. non-respondents      were analyzed by race, the response rate
was dependent on race. Race was categorized by white vs. non-white since the
numbers would have been too small to analyze if all five race categories were kept
separate.   To determine the effect of the relationship between response rate and race,
we undertook an analysis of the non-respondents.       Assuming that the non-responders
would have responded the same as the responders by enrollee and disenrollee, we
calculated a hypothetical global response to the question of being informed of
grievance and appeal rights when first joining the HMO. This calculation gave an
estimate of those claiming they were informed of their appeal and grievance rights
when they first joined of 64.5 percent which differs by 2.1 percentage points from the
66.4 percent overall rate found among responders.

Age was analyzed using a comparison of means with the t-test. Although the t-statistic
was significant, the difference in the mean ages for responders vs. non-responders     was
only 1.26 years. Since the sample size was 794, this small difference was significant.
Had a smaller sample been selected this difference would not have been significant.
Therefore, no adjustments were made based on a bias of age.

The tables below show the results of the chi-square     for the sex and race variables   and
t-test for the age variable.



                                            A-1

                                RESPONDERS VS. NON-RESPONDERS


                                                     SEX




EE                                        SB                BE

CHI-SQ=       1.70
DF=l




                         Resp{

    White                  391

    Non-White               32

    Overall                423

CHI-SQ=22.54*
DF=l


                                           T-TEST FOR AGE




    Respondents                                      368         73.67
                                      I                      1

IINon-Respondents                     I              426     I   72.41

t   =2.09”
df=792
*Statistically    significant    at the 95 percent




                                                     A-2

                                        APPENDIX                    B


                         ESTIMATESAND CONFIDENCE INTERVALS

The chart below summarizes the estimated proportions and the 95 percent confidence
intervals for key statistics presented in this report. The estimates refer to the
beneficiaries’ understanding    of their appeal and grievance rights as well as their
knowledge of various situations for which they may file complaints.


                                                                                           95%
                                                                         Weighted      Confidence
                                   Survey Question                       Percent        Interval
 Finding #1, Most Respondents Are Knowledgeable About The General Right To Ffle Appeals And
 Grievances
 Proportion     of beneficiaries who knew they have the right to

 complain                                                                    86.2V0   82.2% - 90.2%

 Proportion of beneficiaries who knew they could complain when

 they first joined                                                           66.47.   60.890- 72.19Z0


 Finding #~ However, Beneficiaries Are Less Aware Of Speeilic Grounds On Which They Might
 Exercise Their Appeal And Grievance Rights. Proportion of beneficiaries who did not know or
 were not sure they could complain about:
 not being provided Medicare covered services                                38.3T0   32.5’ZO-44.170

 delays in seeing primary physician                                          46.0%    40.Oqo -52. Iyo

 their HMO refusing to pay for emergency care                                47.2%    41.170- 53.2%

 their primary physician’s behavior                                          42.7%    36.7% - 48.6%
 their prima~ physician not taking health complaints seriously               39.770   33.9% - 45.6%

 non-admission     to the hospital                                           52.7IZo 46.6% - 58.9%

 early discharge from the hospital                                           55.470   49.297. - 61.6?Z0

 non-referral    to a specialist                                             43.6%    37.6% - 49.6’%0

 delays in seeing a specialist                                               43.2%    37.1% - 49.2%

 the HMO facilities (such as cleanliness or safety)                          44.370   38.270- 50.4%

 Finding #4, Almost Half Of The Respondents Did Not Understand The Difference Between
 AP-     and Grievances
 Proportion of beneficiaries who did not know or were not sure

 their complaints could be either appeals or grievances                      45.070   39.2% - 50.8?Z0





                                                     B-1

   APPENDIX               C




Health Care FinancingAdministration
        Response to Report




               c-1
.8-’”%

[%
 4L
%.m
     DEPARTMENT         OF HEALTH & HUMAN SERVICES                          Haalth Care Financing Administratbn



                                                                            The Admlnlstratu
                                                                            Washlngtun, D,c,   20201



                                             DEC12W6

      DATE:

      TO;•         June Gibbs Brown
                   Inspector General

      FROM•        Bruce C. Vladeck
                   Administrator

      suBi-Ec’-ROffice              General (OIG) Draft Reports: “Medkme HMO Appeal
                          of Inspectm
                   and GrievanceProcesses-ovemiew:’ (OEI-07-9440280);   ‘Medicare
                   HMO Appeal and Grievance pWtMCW-B~db~eS’          Understanding,”
                   (OEI-07-94-00281); ‘Medicare HMO Appeal and Grie~ce Processes--
                   Sumey of HMOs,” (OEI-07-94-00282); “Medicare HMO Appeal and
                   GrievanceProcesses–Reviewof Cases,”(OEI-07-94-00283)

      We reviewed the above-referenced reports that examine the operatkm of the Nkxbre
      risk-based HMOS appeal and grievance processes. We agreewith the conclusion of your
      report that improvements are needed and are working to implement a number of your
      recommendations. Our detailed wnunents are attached,

      Thrmk you for the opportunity to review and comment on this report,

      Attachment
               Health Care FimmcinE Administration (HCFA} Comments
                         on Office of InsuectorGeneral(OIG)
    Draft Reports: “Medicarc!HealthMaintenance@ZflIlkZ8tiOIM’  (KM  0) Atmeal and
&iwance Processes “Overview.” @EI-07-94-00280k MedicareHMO Appe@ apd
Grievance Processes: “Beneficiaries’ Understantig”  (OEIa7-94a2811:    ”~eficwe
    HMoAPDeal     andGrievanceProcewes: “SurveYof Ii?l@s.” (OEI-07-94-00282);
         “Medicare HMO Armeal and (3II“evance ProGesses: “Review of Cases,”
                                   [OEI-07-94-00283]


OIG Racmnmendations

OIG recommends that IICFAtake the following =tions      to   addressproblemsl@hl@ted
in tic above studies:

o     Actively monitor HMOS to ensure beneficiaries am issued vnittm determinations,

o	    Work with HMOS to establish stmkdze - d appeal and gcievan6e language
      requirements in marldngknrolhnent  materhls and operating procedures,

o      Ensure that HMOS comectly distinguish and process appeak and grievances.

o	     Require HMOS to report Medicare contract-specific data on appeal and grievance
       cases,

o      Mod@ the HMO/CMP Manual to clar& and spe@ key reqtiemmts.

o      Broaden efforts to formally train IIMOS on the appeal and grimmce processes,

EKI?A Rewonse

We agree that improvements are needed. We have a comprehensive effort undemay
called the Medicare Appeals and Gbance         Initiative (MAGI) which includes a number
of objectives that am direetly related to the recommendations in your reports. Our
objectives include identi&ingand meetingthe information needs of beneficiaries
regarding their appeal rights; promoting hd~ plan accmmtabiily by developing and
inqh’ovitig inflmnation on appeals and making memingfid information mo~ available;
and refining mechanisms for monitoring and assisting in the continuousixnpro~elnent of
lIealth phm performance.
Page 2

OIG and HCFAjointly issued a Medicare beneficky advisorybulleti entitl~ “What
Medicare Beneficiaries Need to Know About HMO Arrangements: Know Your Rights.”
This easy-to-mad docunmt conta@ information cm appeal rights, filing compltiti, and
rights to emergency and urgently needed services. Copies of this bulletin are being
distributed nationally. Additionally, significant changes were made to improve the
managed Gare portions of the Medkare Handbook wtich was seti to ~ bemfkmw             MS
year. New datareportingrequirements on phm-level reconsidmtions m“ under
development andmay be instituted as early asmid-1997. We also planto rwtructureand
shortenthe timelinesfor handling health care decisions ad reconsiderations by, health
plans.

Beneficiaries’ Understanding

We are pleasedto seethehighlevel of knowledge among Medicare knrollees &arding
their right to appeal and file complaints, This is an improvement over M earlier finding,
andonewe believe results fromboth Federal program and plw effiirts;ateducating
beneficiaries and providingnotices, With regard t.u the fintig that benefkiwim bd a
lesser level of awareness as to when to exercise their appealrights, forthcotig
regulations clari&ingthe right to appeal when servic& are reduced or tcrminate~ and
when to provide notices of nonGoverage at these points in ewe managemen~ should
significantly help address‘&isproblem, We will considerthe recomnwndatkmsin this
area.

Survey HMOS

Incorrect categorization of appeals as grievances is an area for improvement identiled in
our MAGI initiative. However, we question the percentage and methodology set forth in
this report. Becausecertainstaff within the organizationalstructureof an HMO,01staff
at delegatedmediealgroups withinthe HMO’snetwork are generallyresponsiblefor
assigning Gompkintsto the appeals or @Gvance tiacl$ it would be importantto how
who responded to the two questions asked on this subject and what role i%eyplay in this
partkular proms, We will bemovingto ititi@ the SQWW problem, NXh as SW

mmw and confi.tsionover dil%eiencesin Federal and state terminology.

The type of statistical information sought by OIG staff has not been a requirement for
Medicare-contracting health plans. Thereforq it is not surprising that many plsns
aggregate the appeals information across ~,o~ercj~     Medic~e, and Medicaid rqembers.
New plan-leveI appeals reporting requirements should resolve the need fox Medicare-only
infommtion, and respond to yow recommendation.
Page 3

Rew�GWOfc%ses

We have concerns about the smallsamplesizes and number of cases used to present
findings in this repoti However, the report identifiesthe types of mists@ healthplans
make in operatingan appealssysterq audthe needs thatplanshave for clear, distinct
informationand tminingabout the Medicare managed care requirements (and how these
diffiz ftom state requirementsfor their commercial and Me&aid enrollees), We will
consider tie retxxnrnendations presented.
